UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

ftP*

dry

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 11th day of May, two thousand twenty,
Present: Rosemary S. Pooler,
Gerard E. Lynch,
Michael H. Park,

V

Circuit Judges,

Jerome Nathan Grant,

ORDER
Docket No. 19-1824

Plaintiff - Appellant,
v.
United States of America, Richard J. Arcara, George C.
Burgasser, United States Attorneys Office, John
Taberski, United States Probation Office, Barry J.
Donohue, Donohue Law Offices,
Defendants - Appellees.

Appellant Jerome Nathan Grant filed a motion for reconsideration and the panel that
determined the motion has considered the request.
IT IS HEREBY ORDERED that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

J
I

b
\
W.D.N.Y.
19-cv-269
Vilardo, J.

I

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 14th day of February, two thousand twenty.
Present:
\
,«« ^ t

Rosemary S. Pooler,
Gerard E. Lynch,
Michael H. Park,
Circuit Judges.

yo'1'
xy

Jerome Nathan Grant,

\

V-

Plaintiff-Appellant,
19-1824

v.

United States of America, et al.,
Defendants-Appellees,
Appellant, pro se, moves for leave to proceed in forma pauperis and assignment of pro bono
counsel. Additionally, Appellant moves to recuse Judge Arcara and Richard Donohue. Upon
due consideration, it is hereby ORDERED that the. motions are DENIED and the appeal is
DISMISSED because it "‘lacks an arguable basis either in law or in fact." Neitzke v. Williams,
490 U.S. 319, 325 (1989); see also 28 U.S.C. §‘ 1915(e).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case l:19-cv-00269-LJV Document 7 Filed 06/13/19 Page 1 of 1
Judgment in a Civil Case

United States District Court
WESTERN DISTRICT OF NEW YORK

JEROME NATHAN GRANT

JUDGMENT IN A CIVIL CASE
CASE NUMBER 19-CV-269

v.
UNITED STATES OF AMERICA, et al.

□ Jury Verdict. This action came before the Court for a trial by jury. The
issues have been tried and the jury has rendered its verdict.
Kl Decision by Court. This action came to trial or hearing before the Court.
The issues have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED: that Plaintiffs motion to proceed in forma
pauperis is granted; that all claims are dismissed with prejudice; that plaintiffs
motion for appointment of counsel is denied as moot; and that leave to appeal to
the Court of Appeals as a poor person is denied.

Date: June 13, 2019

MARY C. LOEWENGUTH
CLERK OF COURT
By: S/Kirstie L. Henry
Deputy Clerk

Case l:19-cv-00269-LJV Document6 Filed 06/13/19 Page lot 10

I'i jf

** .

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

PS

■•ru)

i'V

\

\

\'

v

JEROME NATHAN GRANT,

-

/

Plaintiff,
-v-

19-CV-0269V
ORDER

UNITED STATES OF AMERICA,
RICHARD J. ARCARA, GEORGE C.
BURGASSER United States Attorneys
Office, JOHN TABERSKI United States
Probation Office, BARRY J. DONOHUE
Donohue Law Offices,
Defendant.
INTRODUCTION
The pro se plaintiff, Jerome Nathan Grant, is an inmate currently incarcerated at
the Federal Correctional Institution, Gilmer. He seeks relief under 42 U.S.C. § 1983,
alleging that his constitutional rights were violated when he was incorrectly found to be a
career offender during his prosecution in United States v. Worthy, et ah, No. 14-CR0134A (W.D.N.Y. filed July 21, 2014). Docket Item 1. Because Grant is suing officials
acting under color of federal, not state, law, the Court construes his action as one under
Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971). Grant also has moved to
proceed in forma pauperis and has filed the required authorization. Docket Item 2. And
he has moved for appointment of counsel as well, Docket Item 4.
Grant’s motion to proceed in forma pauperis is granted. For the reasons that
follow, however, his claims are dismissed. And his motion for appointment of counsel is
denied as moot.
1

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 2 of 10

SCREENING
Because Grant has met the statutory requirements of 28 U.S.C. § 1915(a) and filed
the required authorization, Docket Item 2, he is granted permission to proceed in forma
pauperis. Therefore, under 28 U.S.C. §§ 1915(e)(2)(B) and 1915A(a), this Court screens
his complaint.
Section 1915 "providefs] an efficient means by which a court can screen for and
dismiss legally insufficient claims." Abbas v. Dixon, 480 F.3d 636, 639 (2d Gir. 2007)
(citing Shakurv. Selsky, 391 F.3d 106, 112 (2d Cir. 2004)). The court shall dismiss a
complaint in a civil action in which a prisoner seeks redress from a governmental entity,
or an officer or employee of a governmental entity, if the court determines that the action
(1) fails to state a claim upon which relief may be granted or (2) seeks monetary relief
against a defendant who is immune from such relief. See 28 U.S.C. § 1915A(b)(1)-(2).
Generally, the court will afford a pro se plaintiff an opportunity to amend or to be heard
prior to dismissal "unless the court can rule out any possibility, however unlikely it might
be, that an amended complaint would succeed in stating a claim." Abbas, 480 F.3d at
639. But leave to amend pleadings may be denied when any amendment would be futile.
See Cuoco v. Moritsugu, 222 F.3d 99,112 (2d Cir, 2000).
In evaluating the complaint, the Court accepts all factual allegations as true and
draws all inferences in the plaintiffs favor. See Larkin v. Savage, 318 F.3d 138, 139 (2d
Cir. 2003) (per curiam); King v. Simpson, 189 F.3d 284, 287 (2d Cir. 1999). "Specific
facts are not necessary," and a plaintiff "need only 'give the defendant fair notice of what
the . . . claim is and the grounds upon which it rests.’" Erickson V. Pardus, 551 U.S. 89,
93, (2007) (quoting Bell AO. Corp. v, Twombly, 550 U.S. 544, 555 (2007)); see also Boykin

2

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 3 of 10

v. Keycorp, 521 F.3d 202, 213 (2d Cir. 2008) (discussing pleading standard in pro se
cases after Twombly: "even after Twombly, dismissal of a pro se claim as insufficiently
pleaded is appropriate only in the most unsustainable of cases"). Although "a court is
obliged to construe [pro se) pleadings liberally, particularly when they allege civil rights
violations," McEachin v. McGuinnis, 357 F.3d 197, 200 (2d Cir. 2004), even pleadings
submitted pro se must meet the notice requirements of Rule 8 of the Federal Rules of
Civil Procedure. Wynderv, McMahon, 360 F.3d 73 (2d Cir. 2004).
The allegations of the complaint, presumed true at this stage of the proceedings,
tell the following story. From “2016 to 3/22/17"1 Grant objected to being sentenced as a
career offender, which substantially increased his recommended sentence under the
United States Sentencing Guidelines. Docket Item 1 at 6. His attorney, defendant Barry
J. Donohue, refused to make the arguments urged by Grant, who “put together a motion
objecting to being a career offender.” Id. He sent a letter with a copy of the motion he
wished to make to the presiding judge, defendant Honorable Richard J. Arcara. Id. at 67. "But Judge Arcara disregarded [his] due process rights just like Barry J. Donohue,
[defendant] George Burgasser/United States Attorney and [the author of the presentence
report, Probation Officer] John Taberski." Id. at 7. Grant was sentenced on March 22,
2017, to 188 months in prison. He accuses the defendants of "collusion and malicious
prosecution and equal protection, access to courts [and] failure to protect," id. at 8, and
he seeks damages of $80,100,000.00. Id. at 11.

1 The minute entry for proceedings held 3/22/2017 before Hon. Richard J. Arcara as to defendant Jerome
Grant shows that the plaintiff was sentenced to 188 months on that date under 14-CR-0134A.

3

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 4 of 10

DISCUSSION
As noted above, Grant brings his claims under 42 U.S.C. § 1983, but the Court
construes them as Bivens claims, "To state a valid claim under 42 U.S.C. § 1983, the
plaintiff must allege that the challenged conduct (1) was attributable to a person acting
under color of state law, and (2) deprived the plaintiff of a right, privilege, or immunity
secured by the Constitution or laws of the United States." Whalen v. County of Fulton,
126 F.3d 400, 405 (2d Cir. 1997) (citing Eagleston v, Guido, 41 F.3d 865, 875-76 (2d Cir.
1994)). Section 1983 does not provide a cause of action against persons who act under
color of federal law. 42 U.S.C. § 1983; Bivens, 403 U.S. at 398 (Harlan, J., concurring).
But the Supreme Court recognized an individual's right to seek damages for a violation
of his constitutional rights against a person acting under color of federal law in Bivens,
403 U.S. at 297.
So Bivens is the federal counterpart to § 1983 and extends protections afforded
under § 1983 to individuals harmed by federal actors. See Tavarez v. Reno, 54 F.3d 109,
110 (2d Cir. 1995).

Because all defendants other than Grant’s attorney, Barry J,

Donahue, are employees of the federal government, and because Donahue is a private
attorney alleged to have colluded with federal prosecutors, none of the defendants are
persons acting under color of state law for purposes of § 1983. Therefore, in light of
Grant's pro se status, the Court construes his claims as brought under Bivens. See
Tavarez, 54 F.3d at 110 (“Although [plaintiff] brought the action under § 1983, the district
court properly construed the complaint as an action under Bivens . . . which requires a
plaintiff to allege that a defendant acted under color of federal law to deprive plaintiff of a
constitutional right.').

4

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 5 of 10

I.

Challenges to Grant’s Sentence
When success in an action would necessarily call into question the fact or duration

of a sentence in a criminalprosecution and that sentence has not been set aside for some
reason, no action lies under § 1983.
We hold that, in order to recover damages for allegedly unconstitutional
conviction or imprisonment, or for other harm caused by actions whose
unlawfulness would render a conviction or sentence invalid, a § 1983
plaintiff must prove that the conviction or sentence has been reversed on
direct appeal, expunged by executive order, declared invalid by a state
tribunal authorized to make such determination, or called into question by a
federal court's issuance of a writ of habeas corpus, 28 U.S.C. § 2254. A
claim for damages bearing that relationship to a conviction or Sentence that
has not been so invalidated is not cognizable under § 1983.
Heck v. Humphrey, 512 U.S. 477,486-87 (1994). And that holds true for Bivens actions.
See Tavarez, 54 F.3d at 110 ("Given the similarity between suits under § 1983 and
Bivens, . . . Heck . . . applies] to Bivens actions as well.") (internal quotation marks
omitted). In other words, “Heck dictates that a cause of action seeking damages ... for
an unconstitutional conviction or sentence does not accrue until the conviction or
sentence has been invalidated." Id (internal quotation marks omitted). Therefore, if
Grant's success on his Bivens claims would necessarily imply the invalidity of his
sentence, his claims must be dismissed because they have not yet accrued.
Here, Grant claims that his sentence as a career offender was legally incorrect,
that his attorney refused to make the appropriate arguments in connection with that
sentence, and that all the defendants conspired to improperly enhance his sentence. As
the linchpin of his claim, Grant asserts that career offender status significantly and
improperly increased the length of his sentence—from “70-87 months [to] 188-235
[months]." Docket Item 1 at 7. Thus, success on Grant’s claims would plainly call into

5

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 6 of 10

question the validity of his sentence because that sentence can "not be reconciled with
the claims of his civil action." Poventudv. City of New York, 750 F.3d 121, 132 (2d Cir,
2014). Because Grant’s sentence has not been set aside, see Worthy, etal., No. 14-CR0134A, Grant's claims are barred by Heck. But even if they were not, they are subject to
dismissal for other reasons.
II.

Absolute Immunity
Grant sues Judge Arcara for his role in sentencing him as a career criminal. It is

well settled that judges are absolutely immune from suit for any actions taken within the
scope of their judicial responsibilities. See, e.g., Mirelesv. Waco, 502 U.S. 9(1991). This
immunity is not pierced even by allegations that the judge acted in bad faith. Pierson v.
Ray, 386 U.S. 547, 554 (1967). The Supreme Court has applied the doctrine of judicial
immunity in actions brought under 42 U.S.C. § 1983 and Bivens, See Pierson, 386 U.S.
at 547; see also Butz v. Economou, 438 U.S, 478, 504 (1978) (no distinction for purposes
of immunity between Bivens claims and § 1983 claims).
The Supreme Court has developed a two-part test for determining whether a judge
is entitled to absolute immunity. See Stump v. Sparkman, 435 U.S. 349, 356-57 (1978),
First, “[a] judge will not be deprived of immunity because the action he took was in error,
was done maliciously, or was in excess of his authority; rather, he will be subject to liability
Only when he has acted in the clear absence of all jurisdiction," id. at 356-57 (internal
quotation marks omitted); see also Maestri v. Jutkofsky, 860 F.2d 50, 53 (2d Cir. 1988)
(noting that Supreme Court has drawn a critical distinction “between ‘excess of
jurisdiction’ and ‘clear absence of all jurisdiction”’ and holding that “the scope of the

6

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 7 of 10

judge's jurisdiction [is to be] construed broadly "). Grant does not, nor on these facts
could he plausibly, argue that Judge Arcara acted in clear absence of all jurisdiction.
Second, a judge is immune only for actions performed in the judge’s judicial
capacity. See, e.g., Gregory v. Thompson, 500 F.2d 59, 62 (9th Cir. 1974) (finding no
immunity where judge assaulted litigant). The actions about which Grant complains were
clearly undertaken within Judge Arcara's judicial capacity. The complaint alleges that
Judge Arcara ignored Grant's complaints about his attorney and his objections to being
adjudicated a career criminal. Judge Arcara took that alleged action precisely in his
capacity as a judge, and Grant's claims against him are therefore barred.
Grant also sues Probation Officer Taberski for his role in Grant's sentencing. But
Taberksi is entitled to absolute immunity as well. Like judges, "some officials who are not
judges but who ‘perform functions closely associated with the judicial process” are entitled
to absolute immunity." Dorman v. Higgins, 821 F.2d 133, 137 (2d Cir. 1987) (quoting
Cleavingerv. Saxner, 474 U.S. 193,200 (1985)). “[A] federal probation officer acts as an
arm of the court" and “is an integral part of one of the most critical phases of the judicial
process." id. Probation officers therefore are entitled to absolute immunity for their role
in connection with a defendant's sentencing. Id. So Grant’s claims against Taberski are
barred as well.
Grant also sues the prosecutor in his case, the late George Burgasser. Like judges
and probation officers, prosecutors performing traditional prosecutorial functions enjoy
absolute immunity in § 1983 suits. See imbler v. Pachtman, 424 U.S. 409,427-28 (1976).
The absolute immunity accorded to government prosecutors encompasses
not only their conduct of trials but all of their activities that can fairly be
characterized as closely associated with the conduct of litigation or potential
litigation, including presentation of evidence to a grand jury to initiate a
7

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 8 of 10

prosecution, activities in deciding not to do so, and conduct of plea
bargaining negotiations.
Barrett v. United States, 798 F.2d 565, 571-72 (2d Cir. 1986) (Citing Lee v, Willins, 617
F.2d 320 (2d Cir.), cert, denied, 449 U.S. 861 (1980).

And absolute prosecutorial

immunity extends to federal prosecutors facing Bivensactions. See Hartman v. Moore,
547 U.S. 250, 261-62 (2006). Because Grant’s claims against Burgasser involve only
Burgasser’s conduct in connection with Grant’s sentencing, those claims also are barred.
Ml.

Persons Not Acting Under Color of Law
The United States is not a person acting under color of state law pursuant to 42

U.S.C, § 1983, nor is it subject to a claim under Bivens, See F.DJ.C. v. Meyer; 510 U.S.
471, 486 (1994) (“An extension of Bivens to agencies of the Federal Government is not
supported by the logic of Bivens itself.”); see also Albert v. Yost, 431 F, App’x 76, 81 (3d
Cir. 2011) ("A Bivens claim can be maintained only against individual federal officers, not
against a federal entity.’’) (citation omitted); Corn Serv. Corp. v. Malesko, 534 U.S. 61,
68, (2001) (“Since Carlson [in 1980] we have consistently refused to extend Bivens
liability to any new context or new category of defendants’’). Thus, the claims against the
United States are not cognizable because the United States cannot be named as a
defendant in this action.
Similarly, defendant Donohue, Grant’s defense attorney, is not a person acting
under color of law, See Yancey v, City of Buffalo, 2012 WL 6016890, at *2 (W.D.N.Y.
Nov. 30, 2012) (“as attorneys that either represented plaintiff or were sought to be
retained to represent plaintiff in the underlying criminal prosecution, they were not
‘persons’ acting under color of federal or state law for purposes of liability under either

8

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 9 of 10

Bivens or 42 U.S.C. § 1983."). Thus, the claims against defendant Donohue also are not
cognizable.
CONCLUSION
Because the plaintiff has met the statutory requirements of 28 U.S.C. § 1915(a)
and has filed the required authorization, his request to proceed in forma pauperis is
granted. For the reasons set forth above, however, the complaint is dismissed under 28
U.S.C. §§: 1915(e)(2)(B) and 1915A(b) because (1) it fails to state a viable claim under
Heck, and (2) it seeks monetary relief from defendants who are immune from such relief
or who may not be sued in a Bivens action. Moreover, because amending the complaint
would be futile, the Court declines to grant the plaintiff leave to amend despite his pro se
status. See Cuoco, 222 F.3d at 112; Advanced Magnetics, Inc. v. BayfrontPartners, Inc.,
106 F.3d 11, 18 (2d Cir. 1997) (leave to amend need not be granted when amendment
would be futile).

9

Case l:19-cv-00269-LJV Document 6 Filed 06/13/19 Page 10 of 10

ORDER
In light of the above, it is hereby
ORDERED that the plaintiff's motion to proceed /r? forma paupe/xs is granted; and
it is further
ORDERED that all claims are dismissed with prejudice, and the Clerk of Court
shall close the file; and it is further
ORDERED that the plaintiffs motion for appointment of counsel is denied as moot;
and it is further
ORDERED that the Court hereby certifies, pursuant to 28 U.S.C. § 1915(a), that
any appeal from this order would not be taken in good faith and leave to appeal to the
Court of Appeals as a poor person is denied. Coppedge v. United States, 369 U.S. 438
(1962). Further requests to proceed on appeal in forma pauperis should be directed on
motion to the United States Court of Appeals for the Second Circuit in accordance with
Rule 24 of the Federal Rules of Appellate Procedure.

SO ORDERED.

DATED:__June 12, 2019
Buffalo, NY

s/Lawrence J. VHardo
Lawrence J. Vilardo
United States District Judge

10

